 DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General


     Evaluation of DHS’ Information Security 

          Program for Fiscal Year 2007 





OIG-07-77                          September 2007
Table of Contents/Abbreviations 


  Executive Summary ....................................................................................................................... 1 


  Background .................................................................................................................................... 2 


  Results of Independent Evaluation ................................................................................................ 3 


  Recommendations........................................................................................................................ 13 


  Management Comments and OIG Analysis ................................................................................ 13 


Appendices
  Appendix A:                Purpose, Scope, and Methodology.................................................................. 15 

  Appendix B:                Management Response to Draft Report.......................................................... 17 

  Appendix C:                FISMA Scorecard and C&A Steady State Scorecard for July 2007............... 22 

  Appendix D:                FY 2007 Monthly Component FISMA Scorecard Grades ............................. 25 

  Appendix E:                FISMA System Inventory and Certification and Accreditation, Security
                             Controls Testing, and Contingency Plan Testing ........................................... 26 

  Appendix F:                Evaluation of Agency Oversight of Contractor Systems and Quality of
                             Agency System Inventory............................................................................... 28 

  Appendix G:                Evaluation of Agency Plan of Action and Milestones Process....................... 29 

  Appendix H:                IG Assessment of the Certification and Accreditation Process ...................... 30 

  Appendix I:                IG Assessment of Agency Privacy Program and Privacy Impact
                             Assessment Process ........................................................................................ 31 

  Appendix J:                Configuration Management ............................................................................ 32 

  Appendix K:                Incident Reporting .......................................................................................... 33 

  Appendix L:                Security Awareness Training, Peer-to-Peer File Sharing, and
                             E-Authentication Risk Assessments ............................................................... 34 

  Appendix M:                Major Contributors to this Report................................................................... 35 

  Appendix N:                Report Distribution ......................................................................................... 36 


Abbreviations
  ATO                        Authority to Operate    

  C&A                        Certification and Accreditation   

  CBP                        United States Customs and Border Protection 

  CIO                        Chief Information Officer 

  CISO                       Chief Information Security Officer   

  CONOPS                     Concept of Operations     

  DHS                        Department of Homeland Security     

  FEMA                       Federal Emergency Management Agency        

  FIPS                       Federal Information Processing Standards    


                              Evaluation of DHS’ Information Security Program for Fiscal Year 2007
Table of Contents/Abbreviations 

  FISMA      Federal Information Security Management Act
  FLETC      Federal Law Enforcement Training Center
  FY         Fiscal Year
  ICE        United States Immigration and Customs Enforcement
  ISSM       Information Systems Security Manager
  ISSO       Information Systems Security Officer
  IT         Information Technology
  NIST       National Institute of Standards and Technology
  NPPD       National Protection and Programs Directorate
  OIG        Office of Inspector General
  OIS        Office of Information Security
  OMB        Office of Management and Budget
  POA&M      Plan of Action and Milestones
  PIA        Privacy Impact Assessment
  PII        Personally Identifiable Information
  PTA        Privacy Threshold Analysis
  S&T        Science and Technology
  SP         Special Publication
  TSA        Transportation Security Administration
  US-CERT    United States Computer Emergency Readiness Team
  USCG       United States Coast Guard
  USCIS      United States Citizenship and Immigration Services
  USSS       United States Secret Service
  US-VISIT   United States Visitor and Immigrant Status Indicator Technology




             Evaluation of DHS’ Information Security Program for Fiscal Year 2007
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                We conducted an independent evaluation of the Department of Homeland
                Security’s information security program and practices to comply with the
                Office of Management and Budget’s reporting requirements noted in the
                Federal Information Security Management Act of 2002 (Public Law 107-347,
                Section 301-305). We evaluated the department’s progress in implementing
                its agencywide information security program. In doing so, we specifically
                assessed the department’s Plan of Action and Milestones, as well as its
                certification and accreditation processes. We performed our work at both the
                program and the component levels.

                The department continues to improve and strengthen its security program.
                During the past year, the department implemented a performance plan to
                measure the component’s progress toward full compliance with its
                information security program. The performance plan tracks key elements
                indicative of a strong, functioning security program. Monthly, the
                department’s Chief Information Officer and Chief Information Security
                Officer report on and discuss component progress. Despite this oversight,
                components are again not executing all of the department’s policies,
                procedures, and practices. For example:
                • 	 Systems are being accredited without key documents or missing key
                    information.
                • 	 Plans of Action and Milestones are not being created for all information
                    security weaknesses.
                • 	 Plans of Action and Milestones are not being monitored and resolved in a
                    timely manner.
                • 	 Baseline security configurations are not being implemented for all
                    systems.
                Management oversight of the component’s implementation of the
                department’s policies and procedures needs to be improved to ensure the
                quality of the certification and accreditation process and that all information
                security weaknesses are tracked and remediated. Other information security
                program areas that need improvement include security configuration
                management, incident detection and analysis, and security training.

                We are making five recommendations to the Chief Information Officer. The
                department has already begun to take actions to implement the
                recommendations. The department’s response is summarized and evaluated in
                the body of this report and included, in its entirety, as Appendix B.

                  Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                             Page 1
Background
             Due to the increasing threat to information systems and the highly networked
             nature of the federal computing environment, Congress, in conjunction with
             the Office of Management and Budget (OMB), requires an annual review and
             reporting of agencies’ compliance with the Federal Information Security
             Management Act (FISMA). FISMA focuses on the program management,
             implementation, and evaluation of the security of unclassified and national
             security systems.

             The E-Government Act of 2002 (Public Law 107-347, Sections 301-305)
             recognized the importance of information security to the economic and
             national security interests of the United States. Information security means
             protecting information and information systems from unauthorized access,
             use, disclosure, disruption, modification, or destruction. Title III of the
             E-Government Act, entitled FISMA, provides a comprehensive framework to
             ensure the effectiveness of security controls over information resources that
             support federal operations and assets.

             FISMA requires each federal agency to develop, document, and implement an
             agencywide security program. The agency’s security program should protect
             the information and the information systems that support the operations and
             assets of the agency, including those provided or managed by another agency,
             contractor, or other source. As specified in FISMA, agency heads are charged
             with conducting an annual evaluation of information programs and systems
             under their purview, as well as assessments of related security policies and
             procedures. Offices of Inspector General (OIG) must independently evaluate
             the effectiveness of an agency’s information security program and practices
             on an annual basis.

             OMB issued memorandum M-07-19, FY 2007 Reporting Instructions for the
             Federal Information Security Management Act and Agency Privacy
             Management, on July 25, 2007. The memorandum provides updated
             instructions for agency and OIG reporting under FISMA. This annual
             evaluation summarizes the results of our review of the Department of
             Homeland Security’s (DHS’) information security program and practices.

             The Chief Information Security Officer (CISO) leads the Office of
             Information Security (OIS) and is responsible for managing DHS’ information
             security program. To aid in managing its security program, DHS developed a
             process for reporting and capturing known security weaknesses in Plan of
             Action and Milestones (POA&Ms). In addition, DHS uses an enterprise
             management tool, Trusted Agent FISMA, to collect and track data related to
             all POA&M activities, including weaknesses identified during
             self-assessments, and certification and accreditation (C&A). Trusted Agent

              Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                         Page 2
                      FISMA also collects data on other FISMA metrics, such as the number of
                      systems that have implemented DHS security configurations and the number
                      of employees who have received information technology (IT) security
                      training.

                      DHS also uses an enterprise C&A tool, Risk Management System, to
                      automate and standardize portions of the C&A process to assist the DHS
                      components in quickly and efficiently developing their security accreditation
                      packages. See Figure 1 for an illustration on how the enterprise management
                      and C&A tools are used within the department to collect, manage, and report
                      information security metrics.

                      Figure 1: DHS’ Enterprise Security Management Tools Usage

                           DHS 4300                                      C&A Tool                                        Data Review Teams

                       FISMA Requirements                       System Security Plan (SSP)                                     DHS
                                                                                                                            Compliance
                       OMB/NIST Guidance                   Requirements Traceability Matrix (RTM)                             Review
                                                                                                                              Teams
                                                             Security Assessment Report (SAR)
                       Other Requirements
                                                                  Sample Test Procedures
                                Component IT Security                                                                          OIG
                                Program Implementation                  Test Results

                                                                     Contingency Plans               Data Verification
                                           IT System                                                     and Review
                                      Implementations                                                                       Component/
                                                                                                                             Domain
                                                                              Future Link                                     ISSM
                            DHS
                         Component/
                                                                FISMA Reporting Tool
                           Domain

                                                            System and Program Security Metrics
                                          Monthly Status
                                          Updates          Plan of Action and Milestones (POA&M)
                                                                                                    FISMA Reports              OMB
                                                             Annual Assessment Questionnaire

                                                               Summary of C&A Status/Docs

                                                                          Reports

                                                                     Digital Dashboard               Metrics
                                                                                                                              DHS
                                                                                                     Digital Dashboard     Management



                      Source: DHS 4300A Sensitive Systems Handbook, Attachment E – FISMA Reporting



Results of Independent Evaluation
We separated the results of our evaluation into seven FISMA areas. For each area, we identified the
progress that DHS has made since our Fiscal Year (FY) 2006 evaluation and those issues that need
to be addressed to be successful in the FISMA area.

              Department Oversight

                      DHS validates and monitors component progress through a verification
                      process and a monthly FISMA scorecard. Improvements are needed in the
                      level of oversight and the metrics being used to monitor component progress.

                        Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                                           Page 3
PROGRESS

• 	 The CISO developed the Fiscal Year 2007 DHS Information Security
   Performance Plan “Raising the Bar” to hold the components to a higher
   C&A process standard, improve the POA&M process, close high-priority
   weaknesses, and require components to achieve full FISMA compliance.
• 	 The CISO developed a FISMA scorecard to manage the component’s
   compliance with the performance plan. The FISMA scorecard provides
   the Chief Information Officer (CIO), the CISO, component CIOs, and
   component Information System Security Managers (ISSM) with an
   overview of each component’s compliance with six FISMA elements.
   The FISMA elements include annual testing, POA&M, C&A,
   configuration management, incident detection and response, and IT
   security training. See Appendix C for an example of the FISMA
   scorecard.
• 	 Throughout the year, the CISO revised the department’s baseline IT
   security policies and procedures in the DHS Sensitive Systems Policy
   Directive 4300A and its companion, DHS 4300A Sensitive Systems
   Handbook.
• 	 DHS issued its DHS Security Operations Concept of Operations
   (CONOPS) in May 2007. The CONOPS defines the security operations
   for the DHS Security Operations Center and subordinate component
   security operation centers. The CONOPS established the roles and
   responsibilities of the DHS Security Operations Center as the central
   reporting and coordinating body for computer security incidents.
• 	 The CISO implemented a data review and verification process of the
   component performance information entered into Trusted Agent FISMA,
   including C&A artifacts, POA&Ms, configuration management, National
   Institute of Standards and Technology (NIST) Special Publication (SP)
   800-53 self-assessments, and IT security training.
• 	 The CIO has taken an active role in ensuring that components comply with
   FISMA. The CIO sent memorandums to the leaders of four components
   (Federal Emergency Management Agency (FEMA), Infrastructure
   Operations, United States Coast Guard (USCG), and United States
   Citizenship and Immigration Services (USCIS)) in April 2007 voicing his
   concern over the status of their FISMA compliance. The CIO requested
   immediate attention to complete the required areas that were in need of
   improvement, for example, C&A, annual self-assessments, and POA&M
   management.




 Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                            Page 4
      ISSUES TO BE ADDRESSED

      • 	 Certain metrics in the performance plan, used by the CISO to grade the
         components, need improvement in order to better reflect the true state of
         FISMA compliance. Areas include closure and completeness of
         POA&Ms, implementation and review of configuration management
         plans, and quality of annual testing. See Appendix D for FY 2007 grades
         assigned by the CISO.
      • 	 The OIS validation team does not ensure that all key C&A artifacts are
         completed prior to validating an Authority To Operate (ATO) letter. The
         team also does not ensure that POA&Ms are created for weaknesses
         identified in the ATO letter and other key C&A artifacts.
      • 	 The OIS validation team does not analyze POA&Ms and discuss with
         system officials to determine the reasonableness of delayed completion of
         POA&Ms or identify recurring and similar weaknesses across the
         department.
      • 	 The OIS validation team does not review classified systems’ POA&Ms.

System Inventory

      DHS maintains its system inventory. Site visits during annual component
      reviews help identify systems that have not been included in the department’s
      system inventory.

      PROGRESS

      • 	 DHS continues to maintain a comprehensive inventory of its major
         applications and general support systems, including contractor and
         national security systems. DHS identified 603 operational systems (as of
         July 31, 2007).
      • 	 DHS continues to maintain an effective process to update and manage its
         inventory on an annual basis for agency, contractors, and classified
         systems by reviewing the system inventory with each component.

      ISSUES TO BE ADDRESSED

      • 	 Site visits to component offices outside the Washington D.C. area are not
         being performed during the annual system inventory reviews. Site visits
         can be used to determine if there are any systems that are not known by
         the ISSM and that should be included in the inventory.

      See Appendices E and F for system inventory and evaluation of DHS’
      oversight of contractor systems and quality of system inventory.

       Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                  Page 5
Certification and Accreditation Process

      DHS requires components to use an enterprise-wide tool that incorporates
      NIST security controls to conduct their C&As. Components are required to
      apply NIST SP 800-53 security controls for all system certifications and
      self-assessments. For many of the systems that have been accredited by the
      components, the artifacts required to support the C&A were either missing or
      incomplete. In addition, many of the self-assessments were not being
      properly completed by the components.

      PROGRESS

      • 	 The CISO requires components to apply NIST SP 800-53 security controls
          for all system certifications and when completing annual self-assessments.
      • 	 DHS uses 11 C&A artifacts, uploaded into Trusted Agent FISMA by the
          components, to monitor their progress in accrediting systems. As of
          July 31, 2007, the CISO reported that 84% of DHS’ operational systems
          (530/603) have been certified and accredited. The 11 artifacts are: ATO
          letter, system security plan, security assessment report, risk assessment,
          security test and evaluation, contingency plan, contingency plan test
          results, Federal Information Processing Standards (FIPS) 199
          determination, e-authentication determination, privacy threshold analysis
          (PTA), and NIST SP 800-53. A total of 68 of the 73 systems that have not
          been accredited belong to one component.

      ISSUES TO BE ADDRESSED

      • 	 The C&A process requires documentation to include system security
          plans, risk assessments, system test and evaluation plans, security
          assessment reports, contingency plans, and contingency plan test results.
          We selected 28 systems with current ATOs spanning 10 components to
          evaluate the quality of DHS’ C&A process. In 17 instances, the
          accreditation packages were incomplete. Specifically, systems were
          accredited, although some required security documents were missing key
          information. Without this information, agency officials cannot make
          credible, risk-based decisions on whether to authorize the system to
          operate. For example:
                   Eight
                    	    instances where system security plans were incomplete,
                   including sections that describe detailed configuration management
                   plans, security controls, and incident handling procedures.
                   Eleven
                    	      instances where a description of the use of automated
                   vulnerability assessment tools were not addressed.


        Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                   Page 6
            Eleven
             	      instances where the effectiveness of controls were not
            addressed.
            Five
             	 instances where contingency plans were incomplete,
            including the identification of alternate processing facilities or
            restoration procedures.
            Eight instances where there was no system test and evaluation plan
            or it was incomplete.
            Three instances where there was no security assessment report or
            the results of the test were not in the security assessment report.

• 	 As of July 31, 2007, 16 systems that were accredited were lacking at least
   one of three critical artifacts: risk assessment, system security plan, or
   security assessment report. Six of the 16 lacked all three of these required
   artifacts.
• 	 As of July 31, 2007, 83 systems were accredited for 1 year or less,
   including 23 for 6 months or less. We believe systems accredited for 6
   months or less are in effect interim ATOs and should not be considered in
   calculating the number of systems that DHS has accepted as accredited.
• 	 We selected 33 systems spanning 13 components to evaluate the quality of
   completed NIST SP 800-53 self-assessments. We determined whether
   there was a compliance description for all applicable controls; supporting
   documentation for all controls that had been tested; justification for any
   controls that were not applicable (N/A); and that a POA&M was created
   for all required controls that had not been tested. For 21 self-assessments,
   there was no compliance description or supporting documentation for one
   or more controls that were not tested. For 11 self-assessments, there was
   no justification for not reviewing one or more of the required security
   controls.
• 	 During an OIG audit at FEMA (Improved Administration Can Enhance
   Federal Emergency Management Agency Laptop Computer Security,
   dated June 2007, OIG-07-50), we determined that its laptop computers had
   not been certified and accredited. FEMA had not included its
   approximately 32,000 laptops as part of any system.
• 	 The CIO identifies systems to be accredited if an ATO letter has been
   validated. We believe that systems with missing or deficient key C&A
   artifacts and systems with an ATO of 6 months or less should not be
   included in the number of systems the department reports as certified and
   accredited. Based on our reviews, the actual number of systems that
   should be accepted as being certified and accredited should be no higher
   than 486 (81% rather than the 84% reported by the CISO).

See Appendix H for the OIG assessment of DHS’ C&A process.


 Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                            Page 7
Plan of Action and Milestones Process

      DHS components are required to use Trusted Agent FISMA to capture and
      track security weaknesses. The components are not entering and tracking all
      IT security weaknesses in Trusted Agent FISMA nor are all of the data
      entered by the components accurate and updated in a timely manner.

      PROGRESS

      • 	 DHS conducts monthly reviews of POA&Ms for completeness and
          monitors the closure rate for initial and repeat audit findings. The findings
          are reported to OIS and components.
      • 	 POA&Ms have been created for all weaknesses identified during the
          FY 2006 financial statement audit.

      ISSUES TO BE ADDRESSED

      • 	 DHS components have not created POA&Ms for all known security
          weaknesses. DHS relies on the component ISSMs and Information
          Systems Security Officers (ISSOs) to ensure that POA&M information is
          entered accurately and that weaknesses are resolved.
                   Three
                    	     components (FEMA, National Protection and Programs
                   Directorate (NPPD), and Science and Technology (S&T)) did not
                   create POA&Ms for findings identified in OIG audit reports issued
                   during FY 2007.
                   We
                    	 selected 33 systems where components reported that a NIST
                   SP 800-53 self-assessment had been completed. When a control
                   has not been tested and the weakness is not accepted based on a
                   risk-based decision, a POA&M should be created to remediate the
                   weakness. In 24 instances, POA&Ms were not created for controls
                   that were not tested.
                   We
                    	 selected 28 systems, spanning 10 components, with current
                   ATOs to evaluate the quality of the C&A documentation. In 10
                   instances, POA&Ms were not created for weaknesses identified
                   during the C&A process.
      • 	 Based on an analysis of data in Trusted Agent FISMA, as of July 5, 2007,
          the ISSMs and ISSOs are not maintaining current information as to the
          progress of security weakness remediation.
                   Component
                    	          management is not updating all weaknesses when the
                   estimated completion date had been delayed. Of the 5,342 open
                   POA&Ms that had estimated completion dates, 480 (9%) were at
                   least 3 months past due (prior to April 5, 2007). Further, 277 had

        Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                   Page 8
            an estimated completion date over 1 year old, dating as far back as
            September 30, 2005.
            Components
             	            are required to provide reasons why a POA&M is
            delayed. As of July 5, 2007, 1,510 of 2,074 open POA&Ms
            identified as delayed did not have a reason.
            Resources
             	         required remediation for 387 of the 5,342 open
            POA&Ms (7%) were not identified or listed the cost of
            remediation as $1. For the remaining 4,955 POA&Ms that
            included required resources, 296 (6%) did not specify the funding
            sources.
            Effective
             	        March 1, 2007, components were required to assign one
            of the 17 NIST SP 800-53 families of controls to each weakness.
            As of July 5, 2007, only 441 of the 2,179 open POA&Ms (20%)
            created after March 1, 2007 had a NIST SP 800-53 control
            assigned.
            Effective
             	         March 1, 2007, ISSMs were required to review and
            approve all priority 4 and priority 5 POA&Ms to ensure that the
            weakness is properly identified, prioritized, and that appropriate
            resources have been made available. Priority 4 weaknesses are
            assigned to initial audit findings and priority 5 weaknesses for
            repeat audit findings. In addition, any weakness can be assigned to
            priority 4 or priority 5 by management. As of July 5, 2007, 148 of
            150 priority 4 and priority 5 POA&Ms created after March 1, 2007
            were not approved.
• 	 Not all POA&Ms are being resolved in a timely manner, including
   weaknesses identified as a significant deficiency.
            As
             	 of July 5, 2007, 1,447 of 5,342 open POA&Ms (27%) reported
            estimated completion dates that were more than 2 years after the
            identification of the weakness.
            As
             	 of July 5, 2007, there were 38 open weaknesses defined as
            significant deficiencies. Seven POA&Ms were created over the 12
            previous months. A significant deficiency is a weakness in an
            organization’s overall IT security program or management control
            structure that significantly restricts the capability of the component
            to carry out its mission or compromises the security of its
            information, information system, personnel, or other resources,
            operations, or assets. The risk is great enough that the organization
            head must be notified and immediate or near-immediate corrective
            action must be taken.

See Appendix G for the evaluation of DHS’ POA&M process.


 Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                            Page 9
                   Configuration Management

                             DHS has updated its baseline software security configuration guides and are
                             to be followed by the components when configuring their systems. A review
                             of four systems identified that the components have not implemented all of the
                             required software security configurations.

                             PROGRESS

                             • 	 DHS updated its agencywide security baseline configuration guides for
                                 Windows NT/2000/2003/XP/Vista/Active Directory, Solaris, Unix, Linux,
                                 Cisco Routers, Microsoft SQL server, and Oracle database servers in May
                                 2007.

                             ISSUES TO BE ADDRESSED

                             • 	 Components have not fully implemented NIST SP 800-53 baseline
                                 security controls, including DHS baseline security configuration
                                 requirements, for all of their systems. Our review of four systems at two
                                 components, FEMA and United States Immigration and Customs
                                 Enforcement (ICE), in which the component reported that DHS security
                                 configurations had been implemented, disclosed that NIST SP 800-53
                                 baseline security controls had not implemented for their systems. NIST
                                 controls that had not been implemented included those associated with
                                 access control, audit and accountability, configuration management,
                                 identification and authentication, and system and information integrity.
                             • 	 The CIO does not have a verification process to validate whether
                                 components have implemented DHS baseline configuration requirements.
                             • 	 Vulnerability assessments performed at components during our laptop,
                                 Plum Island Animal Disease Center, Ronald Reagan Washington National
                                 Airport, and Dulles International Airport audits identified security
                                 concerns with access control, identification and authentication, and
                                 configuration management. In these instances, components had not
                                 configured their systems based on DHS configuration guidelines.
                                 Components included United States Customs and Border Protection
                                 (CBP), FEMA, S&T, Transportation Security Administration (TSA), and
                                 USCG.1



1
 Improved Administration Can Enhance U.S. Customs and Border Protection Laptop Computer Security, dated December 2006
(OIG-07-16); Technical Security Evaluation of DHS Activities at Dulles International Airport, dated January 2007 (OIG-07-25);
Additional Physical, System, and Management Controls Can Enhance Security at Plum Island, dated May 2007 (OIG-07-43);
Technical Security Evaluation of DHS Activities at Ronald Reagan Washington National Airport, dated May 2007 (OIG-07-44);
Improved Administration Can Enhance Federal Emergency Management Agency Laptop Computer Security, dated June 2007
(OIG-07-50).

                               Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                                             Page 10
                        • 	 Weak internal IT controls related to financial management systems were
                             found during the audit of the department’s financial statement for
                             FY 2006.2 Security concerns included inadequate access controls,
                             application controls, and software development and change controls.
                             Note: POA&Ms have been created for each of the weaknesses identified.

                        See Appendix J for information regarding DHS’ configuration management.

                Incident Detection, Handling, and Analysis Procedures

                        DHS has improved its incident detection, handling, and analysis procedures
                        during the last year and began performing vulnerability assessments at some
                        components. However, the department has not fully implemented the
                        vulnerability assessment program across the department.

                        PROGRESS

                        • 	 DHS issued the DHS Security Operations Concept of Operations in
                             May 2007.
                        • 	 DHS developed detailed procedures for reporting incidents externally to
                             law enforcement authorities.
                        • 	 The DHS Computer Security Incident Response Center developed detailed
                             procedures for reporting incidents to the United States Computer
                             Emergency Readiness Team (US-CERT).
                        • 	 DHS developed procedures to perform department-wide security incident
                             monitoring, analysis, and notification. The DHS Security Operations
                             Center has begun to issue security event notifications to components.
                        • 	 DHS Security Operations Center has performed vulnerability assessment
                             scans at CBP, FEMA, and DHS headquarters.

                        ISSUES TO BE ADDRESSED

                        • 	 DHS’ vulnerability assessment program has not been deployed
                             department-wide. The program should be a comprehensive vulnerability
                             alert, assessment, remediation, and reporting process to effectively
                             identify computer security vulnerabilities and track mitigation efforts to
                             resolution.
                        • 	 Some components are not reporting incidents to the DHS Computer
                             Security Incident Response Center, as required. Components are required
                             to submit weekly incident reports. Five components - FEMA, Federal

2
 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit, dated August 2007
(OIG-07-53).

                          Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                                     Page 11
          Law Enforcement Training Center (FLETC), ICE, OIG, and USCIS - did
          not submit reports every week during an 11-week period that we reviewed.

      See Appendix K for information regarding DHS’ incident reporting.

Security Training Procedures

      DHS validates employee security training at the components. The
      Information Security Training, Education, and Awareness Office (Training
      Office) has not determined specific training that is needed for employees with
      significant security responsibilities.

      PROGRESS

      • 	 The Training Office validates specialized security training for individuals
          identified by the components with significant IT security responsibilities.

      ISSUES TO BE ADDRESSED

      • 	 DHS (CIO and Office of Human Capital) has not implemented a
          department-wide web-based IT security training program (learning
          management system) to standardize security awareness training and to
          track the completion of security training. The learning management
          system was originally planned to be implemented in FY 2004; but it was
          pushed back to FY 2007. Currently, the plan is to launch the system by
          the end of September 2007 for DHS headquarters employees only. The
          system is expected to be fully functional (available to all components) by
          September 2009. We reported a similar issue in our FY 2006 FISMA
          report.
      • 	 The Training Office has not established appropriate specialized security
          training that is needed for all employees and contractors with significant
          IT security responsibilities. While the Training Office validates the
          specialized training obtained by ISSMs and ISSOs, it relies on the
          components to ensure that individuals with significant security
          responsibilities (including system administrators, database administrators,
          and network administrators, etc.) are properly trained. We reported a
          similar issue in our FY 2006 FISMA report.
      • 	 Some of the components’ training plans were incomplete, as they did not
          include all of the required information and approvals. For example, seven
          training plans were not approved by the ISSM, seven plans did not include
          the number of employees and contractors who need training, and nine
          plans did not include the number of information systems security
          employees.


        Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                   Page 12
     •     Two components did not submit FY 2007 training plans.

     See Appendix L for information regarding DHS’ security awareness training.

Recommendations
     We recommend that the DHS CIO:
     Recommendation #1: Improve the OIS’ review process to ensure that all
     POA&Ms, including classified systems, are complete, accurate, and current.
     Specifically, the closure for all POA&Ms should be monitored by OIS to
     ensure that security weaknesses are mitigated timely. POA&Ms should also
     be reviewed by OIS to identify the causes for recurring and similar
     weaknesses across the department and determine the reasonableness of
     delayed completion.
     Recommendation #2: Improve the OIS’ review process to ensure that all
     C&A documents are properly prepared before a system is accepted by the
     CISO as an accredited system. Systems accredited by the Designated
     Accrediting Authority should not be accepted unless all required artifacts are
     complete and weaknesses are incorporated into POA&Ms.
     Recommendation #3: Establish a process to ensure that configuration
     requirements are implemented and maintained on all systems.
     Recommendation #4: Implement a department-wide vulnerability assessment
     program to perform periodic testing to evaluate DHS’ security posture.
     Recommendation #5: Establish appropriate training that is needed for all
     individuals with significant security responsibilities.


Management Comments and OIG Analysis
     DHS concurred with recommendation 1. The department significantly
     improved component POA&M oversight in FY 2007. The department’s FY
     2008 performance plan will incorporate additional requirements to address
     classified systems and unreasonable POA&M delays.

     We agree that the steps DHS plans to take satisfy this recommendation.

     DHS concurred with recommendation 2. The department achieved significant
     improvements in producing key accreditation documentation in FY 2007. The
     department’s FY 2008 performance plans will incorporate additional
     requirements to address artifact completeness and further identify weaknesses
     in POA&Ms.

     We agree that the steps DHS plans to take satisfy this recommendation.
         Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                    Page 13
DHS concurred with recommendation 3. The department’s FY 2008
performance plan will incorporate additional requirements to address a
monitoring process for configuration requirements at the system level, and for
validating that components are completing annual vulnerability scans.

We agree that the steps DHS plans to take satisfy this recommendation.

DHS concurred with recommendation 4. The DHS Security Operations
Center has begun performing component vulnerability assessments and will
continue to perform them in FY 2008.

We agree that the steps DHS has taken, and plans to take satisfy this
recommendation.

DHS concurred with recommendation 5. The department provides specialized
training at its DHS Security Conference. The department’s FY 2008
performance plan will incorporate additional requirements to track individuals
and establish appropriate training.

We agree that the steps DHS plans to take satisfy this recommendation.




 Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                            Page 14
Appendix A
Purpose, Scope, and Methodology



                    The objective of this review was to determine whether DHS has developed
                    adequate and effective information security policies, procedures, and
                    practices, in compliance with FISMA. In addition, we evaluated DHS’
                    progress in developing, managing, and implementing its information security
                    program.

                    Our independent evaluation focused on DHS’ information security program
                    and practices, based on the requirements outlined in FISMA and, using OMB
                    Memorandum M-07-19, FY 2007 Reporting Instructions for the Federal
                    Information Security Management Act and Agency Privacy Management,
                    issued on July 25, 2007. We conducted our work at the program level and at
                    DHS’ major components: CBP, DHS Management, FEMA, FLETC, ICE,
                    OIG, NPPD, S&T, TSA, USCG, USCIS, and United States Secret Service
                    (USSS).

                    In addition to our independent evaluation, we conducted reviews of DHS’
                    information systems and security program-related areas throughout
                    FY 2007. This report includes results of a limited number of systems
                    evaluated during our past and on-going financial statement review, laptop
                    security, Plum Island Animal Disease Center, and technical evaluations at two
                    airports audits.

                    As part of our evaluation of DHS’ compliance with FISMA, we assessed DHS
                    and its components’ compliance with the security requirements mandated by
                    FISMA and other federal information systems’ security policies, procedures,
                    standards, and guidelines including NIST SP 800-37, and FIPS 199.
                    Specifically, we (1) used last year’s FISMA independent evaluation as a
                    baseline for this year’s review and assessed the progress that DHS has made
                    in resolving weaknesses previously identified; (2) focused on reviewing DHS’
                    POA&M process to ensure that all security weaknesses are identified, tracked,
                    and addressed; (3) reviewed policies, procedures, and practices that DHS has
                    at the program level and at the component level; (4) evaluated processes, i.e.,
                    system inventory, C&A, security training, and incident response, that DHS
                    has implemented as part of its agencywide information security program; and,
                    (5) developed our independent evaluation of DHS’ information security
                    program.

                    We reviewed the quality of the C&A packages for a sample of 28 systems and
                    33 NIST SP 800-53 self-assessments at 13 components: CBP, DHS
                    Management, FEMA, FLETC, ICE, NPPD, OIG, S&T, TSA, USCG, USCIS,
                    USSS, and United States Visitor and Immigrant Status Indicator Technology
                    (US-VISIT), to ensure that all of the required documents were completed prior
                    to being accredited.


                     Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                                Page 15
Appendix A
Purpose, Scope, and Methodology


                    We conducted our evaluation between June and August 2007 under the
                    authority of the Inspector General Act of 1978, as amended, and according to
                    the Quality Standards for Inspections issued by the President’s Council on
                    Integrity and Efficiency. Major OIG contributors to the evaluation are
                    identified in Appendix M.

                    The principal OIG points of contact for the evaluation are Frank Deffer,
                    Assistant Inspector General, Office of Information Technology at
                    (202) 254-4100 and Edward G. Coleman, Director, Information Security
                    Audits Division at (202) 254-5444.




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                                Page 16
Appendix B
Management Response to Draft Report




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                Page 17 

Appendix B
Management Response to Draft Report




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                Page 18 

Appendix B
Management Response to Draft Report




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                Page 19 

Appendix B
Management Response to Draft Report




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                Page 20 

Appendix B
Management Response to Draft Report




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                Page 21 

Appendix C
FISMA Scorecard and C&A Steady State Scorecard for July 2007




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                               Page 22 

Appendix C
FISMA Scorecard and C&A Steady State Scorecard for July 2007




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                               Page 23 

Appendix C
FISMA Scorecard and C&A Steady State Scorecard for July 2007




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                               Page 24 

Appendix D
FY 2007 Monthly Component FISMA Scorecard Grades




                    Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                             Page 25 

Appendix E
FISMA System Inventory and Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing


                                                                                    Question 1: FISMA System Inventory
1.     As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199 system impact level (high, moderate, low, or not categorized).
Extend the worksheet onto subsequent pages if necessary to include all Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a contractor of an agency or other organization on behalf of an
agency. The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet the
requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.

                                          Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by the IG by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and percentage of systems which have: a current
certification and accreditation, security controls tested and reviewed within the past year, and a contingency plan tested in accordance with policy.

                                                                     Question 1                                                                                          Question 2
                                         a.                         b.                               c.                                 a.                                  b.                                   c.
                                   Agency Systems           Contractor Systems           Total Number of Systems              Number of systems               Number of systems for which              Number of systems for
                                                                                         (Agency and Contractor             certified and accredited           security controls have been            which contingency plans
                                                                                                 systems)                              (a)                   tested and reviewed in the last             have been tested in
                                                                                                                                                                           year                        accordance with policy
     Bureau    FIPS 199 Risk                    Number                   Number          Total         Total Number
                                   Number                   Number                                                       Total Number Percent of Total       Total Number      Percent of Total     Total Number Percent of Total
      Name     Impact Level                    Reviewed                 Reviewed        Number          Reviewed
CBP           High                                 3                         0                               3                 3/ 2             67%                3                 100%                  2                 67%
              Moderate                             3                         0                               3                 3/ 2             67%                3                 100%                  2                 67%
              Low                                  1                         0                               1                  1              100%                1                 100%                  1                 100%
              Sub-total               41           7           2             0             43                7                 7/ 5             71%                7                 100%                  5                 71%
USCIS         Moderate                             6                        12                               18                4/ 2             11%                6                  33%                 17                 94%
              Low                                  0                         2                               2                  1               50%                1                  50%                  2                 100%
              Sub-total               59           6           34           14             93                20                5/ 3             15%                7                 35%                  19                 95%
FEMA          High                                 8                         0                               8                 7/ 5             63%                7                  88%                  4                 50%
              Moderate                             0                         1                               1                 1/ 0             0%                 1                 100%                  0                 0%
              Not Categorized                      2                         0              0                2                  0               0%                 0                  0%                   0                 0%
              Sub-total               38           10          18            1             56               11                 8/ 5             45%                8                 73%                   4                 36%
FLETC         Moderate                             3                         0                              3                   3              100%                3                 100%                  2                 67%
              Low                                  1                         0                              1                  1/ 0             0%                 1                 100%                  0                 0%
              Sub-total               9            4           2             0             11               4                  4/ 3             75%                4                 100%                  2                 50%
IA            Sub-total               3            0           0             0              3               0                   0               0%                 0                  0%                   0                 0%
Oper Coord Sub-total                  2            0           1             0              3               0                   0               0%                 0                  0%                   0                 0%




                                                                      Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                                                                             Page 26 

Appendix E
FISMA System Inventory and Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing


  Bureau       FIPS 199 Risk              Number                 Number        Total      Total Number
                                Number              Number                                                 Total Number   Percent of Total   Total Number   Percent of Total   Total Number Percent of Total
   Name        Impact Level              Reviewed               Reviewed      Number        Reviewed
ICE           High                           3                      1                           4              4/ 3             75%               3               75%               4             100%
              Moderate                       3                      2                           5              4/ 3             60%               5              100%               2             40%
              Low                            1                      1                           2               2              100%               2              100%               2             100%
              Sub-total           40         7         58           4            98             11             10/ 8           73%                10             91%                8             73%
Infrastructure High                          0                      1                           1              1/ 0             0%                1              100%               1             100%
              Moderate                       1                      1                           2               2              100%               2              100%               1             50%
              Sub-total           5          1         14           2            19             3              3/ 2            67%                3              100%               2             67%
NPPD          High                           1                      1                           2              2/ 1             50%               2              100%               1             50%
              Moderate                       1                      2                           3              3/ 2             67%               3              100%               3             100%
              Low                            0                      1                           1              1/ 0             0%                1              100%               0              0%
              Sub-total           6          2         11           4            17             6              6/ 3            50%                6              100%               4             67%
OIG           High                           1                      0                           1               1              100%               1              100%               1             100%
              Sub-total           3          1          0           0            3              1               1              100%               1              100%               1             100%
S&T           Moderate                       4                      0                           4               3               75%               3               75%               2             50%
              Low                            1                      2                           3               1               33%               1               33%               1             33%
              Sub-total           11         5          9           2            20             7               4              57%                4              57%                3             43%
TSA           High                           0                      1                           1               1              100%               1              100%               1             100%
              Moderate                       0                      1                           1               1              100%               1              100%               1             100%
              Low                            0                      1                           1               1              100%               1              100%               1             100%
              Sub-total           47         0         24           3            71             3               3              100%               3              100%               3             100%
USCG          High                           2                      0                           2              2/ 0             0%                2              100%               1             50%
              Moderate                       3                      1                           4              3/ 1             25%               4              100%               2             50%
              Low                            1                      0                           1              1/ 0             0%                1              100%               1             100%
              Sub-total           96         6         27           1           123             7              6/ 1            14%                7              100%               4             57%
USSS          High                           2                      0                           2              2/ 1             50%               2              100%               1             50%
              Moderate                       1                      0                           1              1/ 0             0%                1              100%               0              0%
              Sub-total           34         3          1           0            35             3              3/ 1            33%                3              100%               1             33%
US-VISIT      Low                            0                      1                           1               1              100%               1              100%               0              0%
              Sub-total           2          0          6           1            8              1               1              100%               1              100%               0              0%
Agency
Totals        High               136         20        58           4           194             24            23/ 14            58%               22              92%               16            67%
              Moderate           210         25        118         20           328             45            42/ 19            42%               32              71%               32            71%
              Low                 49         5         31           8            80             13             11/ 7            54%               10              77%               8             62%
              Not Categorized     1          2          0           0            1              2               0               0%                0               0%                0              0%

              Total              396        52        207          32           603            84             62/ 40           48%               64              76%                56            67%

Comments: (a) Per CISO procedures, the number of systems certified and accredited is based on a validated ATO letter, not on the adequacy of the documents required. If in our determination, the
systems should not have been accredited based upon the quality of the artifacts, the revised number is shown next to the original total. The percent of total is based on the OIG’s count of systems
accredited.

                                                             Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                                                               Page 27 

Appendix F
Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory



  Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency
                                    System Inventory
    In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.
            The agency performs oversight and evaluation to ensure information systems
            used or operated by a contractor of the agency or other organization on behalf
            of the agency meet the requirements of FISMA, OMB policy and NIST
            guidelines, national security policy, and agency policy.

           Agencies are responsible for ensuring the security of information systems
           used by a contractor of their agency or other organization on behalf of their
           agency; therefore, self-reporting by contractors does not meet the
           requirements of law. Self-reporting by another federal agency, for example, a - Almost Always- for example,
   3.a.                                                                                                                    (a)
           federal service provider may be sufficient. Agencies and service providers    approximately 96-100% of the time
           have a shared responsibility for FISMA compliance.

           Response Categories:
              Rarely- for example, approximately 0-50% of the time
              Sometimes- for example, approximately 51-70% of the time
              Frequently- for example, approximately 71-80% of the time
              Mostly- for example, approximately 81-95% of the time
              Almost Always- for example, approximately 96-100% of the time
           The agency has developed a complete inventory of major information systems
           (including major national security systems) operated by or under the control
           of such agency, including an identification of the interfaces between each
           such system and all other systems or networks, including those not operated
           by or under the control of the agency.
   3.b.                                                                                     Approximately 96-100% complete
           Response Categories:
              The inventory is approximately 0-50% complete
              The inventory is approximately 51-70% complete
              The inventory is approximately 71-80% complete
              The inventory is approximately 81-95% complete
              The inventory is approximately 96-100% complete

           The IG generally agrees with the CIO on the number of agency-owned
   3.c.                                                                                                    Yes
           systems. Yes or No.

           The IG generally agrees with the CIO on the number of information systems
   3.d.    used or operated by a contractor of the agency or other organization on behalf                  Yes
           of the agency. Yes or No.

   3.e.    The agency inventory is maintained and updated at least annually.                               Yes


Comments:
(a)	 DHS requires contractor systems to be evaluated in the same manner as agency owned systems. As of
     July 31, 2007, NIST SP 800-53 self-assessments have been performed for all operational contractor systems.
     This response is a result of DHS’ reported performance metrics. The OIG has not evaluated the quality of
     assessments performed.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                           Page 28 

Appendix G
Evaluation of Agency Plan of Action and Milestones Process



       Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process

Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and
milestones (POA&M) process. Evaluate the degree to which each statement reflects the status in your agency by
choosing from the responses provided. If appropriate or necessary, include comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
   Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
   Frequently- for example, approximately 71-80% of the time
   Mostly- for example, approximately 81-95% of the time
   Almost Always- for example, approximately 96-100% of the time

           The POA&M is an agency-wide process, incorporating all known IT
           security weaknesses associated with information systems used or                - Almost Always, for example,
   4.a.                                                                                                                    (a)
           operated by the agency or by a contractor of the agency or other              approximately 96-100% of the time
           organization on behalf of the agency.
           When an IT security weakness is identified, program officials (including       - Sometimes, for example,
   4.b.    CIOs, if they own or operate a system) develop, implement, and manage                                          (b)
                                                                                         approximately 51-70% of the time
           POA&Ms for their system(s).
           Program officials and contractors report their progress on security            - Mostly- for example, approximately
   4.c.                                                                                                     (c)
           weakness remediation to the CIO on a regular basis (at least quarterly).      81-95% of the time

           Agency CIO centrally tracks, maintains, and reviews POA&M activities - Sometimes, for example,
   4.d.                                                                                                          (d)
           on at least a quarterly basis.                                       approximately 51-70% of the time
                                                                                          - Mostly, for example, approximately
   4.e.    IG findings are incorporated into the POA&M process.                                             (e)
                                                                                         81-95% of the time
           POA&M process prioritizes IT security weaknesses to help ensure          - Mostly- for example, approximately
   4.f.    significant IT security weaknesses are addressed in a timely manner and                    (f)
                                                                                   81-95% of the time
           receive appropriate resources.

           POA&M process comments:

           (a) DHS requires all known IT security weaknesses be included in Trusted Agent FISMA.
           (b) DHS requires components to create POA&Ms for all IT security weaknesses. However, there were instances during
               our review of the C&A process and NIST SP 800-53 self-assessments where POA&Ms were not created for all
               weaknesses identified or controls not tested. In addition, many of the POA&Ms did not contain all required
               information, such as resources required for remediation.
           (c) DHS components are required to update all information in their POA&Ms at least monthly. However, as of
               July 5, 2007, 9% of open POA&Ms had estimated completion dates that were at least 3 months past due (prior to
               April 5, 2007), including 277 that had estimated completion dates more than 1 year old.
           (d) The CIO conducts monthly reviews of the POA&Ms for status and completion and issues reports to the components.
               However, the CIO does not review POA&Ms for classified systems and does not analyze POA&Ms to determine the
               reasonableness of delayed completion of POA&Ms or identify recurring or similar weaknesses across the department.
           (e) DHS requires all OIG findings be included in each component’s POA&M. We determined that 88% of findings were
               incorporated into a POA&M.
           (f) DHS prioritizes its IT security weaknesses. However, 7 of 38 open significant weaknesses (18%) were created more
               than 12 months ago and 8 of the 38 (21%) did not have resources identified.
           .




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                        Page 29 

Appendix H
IG Assessment of the Certification and Accreditation Process



              Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to
existing policy, guidance, and standards. Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal
Information Systems" (May 2004) for certification and accreditation work initiated after May 2004. This includes use of
the FIPS 199, "Standards for Security Categorization of Federal Information and Information Systems" (February 2004) to
determine a system impact level, as well as associated NIST document used as guidance for completing risk assessments
and security plans.

           The IG rates the overall quality of the Agency's
           certification and accreditation process as:

           Response Categories:
                                                                                   (a)
   5.a.       Excellent                                             Satisfactory
              Good
              Satisfactory
              Poor
            - Failing

           The IG's quality rating included or considered   Security plan                                           X
           the following aspects of the C&A process: (check
           all that apply)                                  System impact level                                     X
                                                            System test and evaluation                              X
                                                                  Security control testing                          X
   5.b.                                                           Incident handling                                 X
                                                                  Security awareness training                       X
                                                                  Configurations/patching                            X
                                                                  Other: privacy impact assessment, risk assessment,
                                                                  contingency plan, contingency plan testing, security
                                                                  assessment report
           C&A process comments:

           (a) DHS has implemented a good C&A process. DHS uses a department-wide tool that
               incorporates NIST security controls to certify and accredit all systems. The CIO requires all
               components to use this tool. Components are required to apply NIST SP 800-53 security
               controls for all system certifications. However, for many systems, the artifacts that are required
               to certify and accredit a system were either missing or incomplete. Our review of 28 C&A
               packages at 10 components found 17 instances in which accreditation packages were
               incomplete. Specifically, systems were accredited, although some security documents were
               missing key information that is required to meet all applicable DHS, OMB, and NIST
               guidelines.




                       Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                      Page 30 

Appendix I
IG Assessment of Agency Privacy Program and Privacy Impact Assessment Process


 Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA)
                                         Process
  6.a. 	   Provide a qualitative assessment of the agency's Privacy Impact
           Assessment (PIA) process, as discussed in Section D II.4 (Senior
           Agency Official for Privacy reporting template), including
           adherence to existing policy, guidance, and standards.

           Response Categories:                                                                              Good
            - Excellent
            - Good
            - Satisfactory
            - Poor
            - Failing
           Comments:

           DHS has taken steps to continually improve its PIA guidance. The most recent guidance issued by the Privacy Office
           increased the emphasis on describing the privacy analysis that should take place in making a system design decision
           that affects privacy. The Privacy Office requires a PTA for all systems to determine if a PIA is required. The PTA
           was specifically designed to identify which systems in the DHS information system inventory collect or use
           personally identifiable information (PII), which systems require a PIA, and which need a Privacy Act System of
           Records Notice. The Privacy Office has further refined the PTA over the past 2 years and it is now a key aspect of the
           privacy compliance process. The PIA guidance provides information on when a PIA must be conducted, how
           associated analysis should be performed, and how the PIA document should be written. The Privacy Office requires
           more detail requirements than required by OMB.


  6.b.     Provide a qualitative assessment of the agency's progress to date
           in implementing the provisions of M-06-15, "Safeguarding
           Personally Identifiable Information" since the most recent self-
           review, including the agency's policies and processes, and the
           administrative, technical, and physical means used to control and
           protect personally identifiable information (PII).
                                                                                                             Good
           Response Categories:
            - Excellent
            - Good
            - Satisfactory
            - Poor
            - Failing

           Comments:

           DHS has taken actions to integrate privacy considerations into the DHS decision-making process by establishing an
           advisory committee, holding public workshops, and participating in policy development. The Chief Privacy Officer
           and CIO issued a memorandum in June 2006 to all DHS employees and contractors reinforcing their obligations to
           safeguard PII. In September 2006, DHS updated its IT security policies to cover the technical safeguards in
           identifying the requirements surrounding the protection of PII. In 2007; the Privacy Office issued guidance regarding
           the use of social security numbers at DHS; and the collection, use, retention, and dissemination of information on
           non-U.S. citizens. In June 2007, the Under Secretary for Management and Chief Privacy Officer requested that all
           DHS components perform self-assessments of the handling of PII by August 15, 2007, and provide privacy and IT
           security awareness training to all employees and contractors by September 15, 2007. The Privacy Office is also
           continually refining the PTA process to identify systems that maintain PII.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                           Page 31 

Appendix J
Configuration Management



                                     Question 7: Configuration Management

      7.a.      Is there an agency-wide security configuration policy? Yes
                                                                                                          Yes
                or No.
                Comments:
                DHS has included in its agency-wide policy the requirement that all components ensure that the
                installation of hardware and software products meet the requirements specified in applicable DHS secure
                baseline configuration guides. DHS has developed configuration guides for all major hardware and
                software systems being used by its components.
                Approximate the extent to which applicable information
      7.b.      systems apply common security configurations established
                by NIST.

                Response categories:
                                                                                                    See comment (a)
                 -   Rarely- for example, approximately 0-50% of the time
                 -   Sometimes- for example, approximately 51-70% of the time
                 -   Frequently- for example, approximately 71-80% of the time
                 -   Mostly- for example, approximately 81-95% of the time
                 -   Almost Always- for example, approximately 96-100% of the time


Comments:

(a)	 Many of the components use standard configurations for their systems, but have not fully implemented DHS'
     baseline configuration guides. In addition, while the CIO has performed procedural and documentation reviews
     at each component to determine whether configuration management processes are in place, no testing has been
     performed to determine whether components are in compliance with DHS baseline configurations (or other
     system configuration guides). Results of vulnerability assessments during the fiscal year have identified
     security concerns, including inadequate password controls, patches not installed, and configuration settings that
     are not in agreement with DHS baseline configurations.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                          Page 32 

Appendix K
Incident Reporting



                                          Question 8: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally,
to US-CERT, and to law enforcement. If appropriate or necessary, include comments in the area provided below.

              The agency follows documented policies and procedures for                              (a)
     8.a.                                                                                      Yes
              identifying and reporting incidents internally. Yes or No.
              The agency follows documented policies and procedures for
     8.b.     external reporting to US-CERT. Yes or No.                                         Yes
              (http://www.us-cert.gov)
              The agency follows documented policies and procedures for
     8.c.                                                                                       Yes
              reporting to law enforcement. Yes or No.

              Comments:

              (a) While DHS requires components to submit weekly incident reports, during an 11-week period in FY 2007,
                  five major components (FEMA, FLETC, ICE, OIG, USCIS) did not submit reports every week.




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                    Page 33 

Appendix L
Security Awareness Training, Peer-to-Peer File Sharing, and E-Authentication Risk Assessments



                                      Question 9: Security Awareness Training
Has the agency ensured security awareness training of all employees,
including contractors and those employees with significant IT security
responsibilities?

Response Categories:                                                                Mostly, or, approximately 81-95% of
   Rarely- or approximately 0-50% of employees                                     employees
 - Sometimes- or approximately 51-70% of employees
   Frequently- or approximately 71-80% of employees
   Mostly- or approximately 81-95% of employees
   Almost Always- or approximately 96-100% of employees
   Comments:
   The Training Office is validating components training data to ensure that the components provide IT security awareness
   training to its employees. The Training Office has begun validating training for employees with significant IT security
   responsibilities, however, all employees, including contractors, with significant IT security responsibilities, have not been
   identified. In addition, the Training Office has not established appropriate training that is needed for all individuals with
   significant IT security responsibilities (including network, database and system administrators).

                                        Question 10: Peer-to-Peer File Sharing
Does the agency explain policies regarding peer-to-peer file sharing in IT
security awareness training, ethics training, or any other agency-wide                                Yes
training? Yes or No.
    Comments:
    Two components did not explain DHS’ policy regarding peer-to-peer file sharing risks during its IT security awareness
    training.




                                 Question 11: E-Authentication Risk Assessments
The agency has completed system e-authentication risk assessments. Yes or
                                                                                                          Yes
No.




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                       Page 34 

Appendix M
Major Contributors to this Report



                      Information Security Audit Division

                      Edward G. Coleman, Director
                      Jeff Arman, Audit Manager
                      Chiu-Tong Tsang, Senior IT Auditor
                      Maria Rodriguez, Senior IT Auditor
                      Charles Twitty, IT Auditor
                      Swati Mahajan, IT Specialist
                      Amanda Strickler, IT Specialist
                      Tom Rohrback, Management/Program Assistant
                      Steve Ressler, Referencer

                      Advanced Technology Division

                      Richard Saunders, Director
                      Ginger Doetsch, Senior Security Engineer
                      Blake Bommelje, IT Specialist




                   Evaluation of DHS’ Information Security Program for Fiscal Year 2007

                                                 Page 35
Appendix N
Report Distribution



                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretary
                        Assistant Secretary for Legislative and Intergovernmental Affairs
                        Assistant Secretary for Policy
                        Assistant Secretary for Public Affairs
                        Chief Information Officer
                        Deputy Chief Information Officer
                        Chief Financial Officer
                        Chief Privacy Officer
                        Chief Human Capital Officer
                        Chief Information Security Officer
                        Director, GAO/OIG Liaison Office
                        Director, Compliance and Oversight Program, Office of CIO
                        Director, Information Security Audit Division
                        Chief Information Officer Audit Liaison
                        Chief Information Security Officer Audit Liaison
                        Component CIOs
                        Component ISSMs

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as appropriate




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2007 


                                                    Page 36 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at: 

           DHS Office of Inspector General/MAIL STOP 2600, 

           Attention: Office of Investigations - Hotline, 

           245 Murray Drive, SW, Building 410, Washington, DC 20528. 


The OIG seeks to protect the identity of each writer and caller.
